                                       TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



June 23, 2014

Diane T. Wear, WT 4B-K

REQUEST FOR FINAL ACTION – AUDIT 2014-15027 – TVA’S OFFICIAL STATIONS



The Tennessee Valley Authority (TVA) incurs travel expenses when employees perform
TVA business away from their official stations.1 The Office of the Inspector General (OIG)
included a review of official stations on its annual audit plan based on concerns expressed
to the OIG regarding the appropriateness of official stations for frequent travelers. For
fiscal years (FY) 2009 through 2013, a total of 13,350 employees incurred approximately
$134 million in travel expenses. Our audit objectives were to determine (1) if TVA's most
frequent travelers are assigned to appropriate official stations and (2) whether controls are
in place to assign employees to proper and/or cost effective official stations.

In summary, we found official stations generally appeared appropriate for TVA’s most
frequent travelers. However, we noted departments with employees who frequently travel
to multiple locations assign official stations in differing ways. Additionally, controls and
policies could be strengthened by (1) including guidance on evaluating official stations and
(2) requiring approval from the appropriate level of management for decisions not to
change official stations based on the dollar values of travel expenses incurred or expected
to be incurred. As part of our audit we followed up on TVA management’s actions taken in
response to the OIG’s previous travel review, Inspection 2006-522I, Review of TVA Travel
Reimbursements. We noted action plans agreed to in the past do not appear to have
been fully implemented.

We recommend TVA’s Vice President and Controller, Corporate Accounting: (1) consider
developing specific guidance for assigning and/or reassigning official stations to positions
at TVA requiring frequent or continuous travel that is not to a single location; (2) develop
guidance for supervisors to define when they are expected to evaluate changing the
official station of an employee in an extended travel situation to one location; (3) develop
guidance for documenting evaluations of official stations for employees in extended travel
to a single location, including information that should be considered during the evaluation;
(4) consider implementing an approval level based on potential costs to TVA for decisions
not to change an official station made as a result of official station evaluations of
employees on extended travel to a single location; (5) include in TVA procedures a
requirement for management to ensure employees in extended periods of travel are,
in fact, maintaining a residence at their official station; and (6) communicate procedure
1
    During our audit, the term official duty station was changed to official station with the issuance of TVA-
    SPP-13.022, Travel.
       WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
        distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                is not to be further distributed without prior approval of the Inspector General or his designee.

                                       TVA RESTRICTED INFORMATION
Diane T. Wear
Page 2
June 23, 2014



changes in response to this audit to all strategic business units’ (SBU) management. TVA
management agreed with the audit findings and recommendations in this report and plans
to take corrective actions. See the Appendix for TVA’s complete response.

BACKGROUND

TVA pays for or reimburses employees for travel expenses while employees are
performing TVA business away from their official stations. TVA’s total travel expenses for
FYs 2009 through 2013 were approximately $134 million, which is an average of almost
$27 million per year. A total of 13,350 employees traveled over 1.1 million days during the
5-year period.

An official station is defined as the location where the employee regularly performs his or
her duties and a 50-mile radius from that point. If the employee's work involves recurring
travel or varies on a recurring basis, the location where the work activities of the
employee's position of record are based is considered the official station. TVA’s Travel
Policy2 defines official station and the responsibilities for reviewing official stations in
relation to extended travel. According to the Travel Policy, “supervisors and managers are
expected to give consideration to changing an employee's official station in lieu of paying
continuous travel allowances if the employee is expected to remain at one temporary
station for an extended period of time.” Additionally, supervisors are to notify Accounting
Services anytime an employee incurs travel expenses in connection with a temporary duty
assignment at one location which is expected to last, or in fact lasts, 1 year or more as this
is a taxable travel situation. For travel expense and reimbursement circumstances not
addressed in the policy, TVA follows the applicable provisions of the Federal Travel
Regulations (41 CFR-Part 301).

TVA’s Relocation Policy3 addresses employee relocations as a result of official station
changes. When a change of official station for permanent duty is authorized the employee
may be eligible for allowances and reimbursements of expenses related to the relocation.
The Relocation Policy also addresses temporary changes to official stations. An employee
who is directed to perform a long-term assignment (not less than 6 months and not more
than 30 months) at a temporary location may be eligible for some relocation allowances.
Eligibility is discretionary and is determined by the organization’s management based on
whether or not it is more advantageous to TVA to authorize a temporary change of station.
An employee with a temporary change of station is not eligible for travel reimbursements
while on temporary duty travel. If the assignment exceeds 30 months the employee must
permanently be assigned to the temporary official station or be returned to the previous
official station.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to determine (1) if TVA's most frequent travelers are assigned to
appropriate official stations and (2) whether controls are in place to assign employees to
proper and/or cost effective official stations. This audit was performed to evaluate official

2
    The Travel Policy refers to TVA-SPP-13.022, Travel.
3
    The Relocation Policy refers to TVA-SPP-11.208, Employee Relocation Allowances.
                                 TVA RESTRICTED INFORMATION
Diane T. Wear
Page 3
June 23, 2014



station controls, and as such, each of our audit findings is related to oversight controls in
the context of the audit objectives and based upon the audit work performed. To achieve
our objectives, we:

   Reviewed TVA policies and procedures and Federal Travel Regulations to identify key
    requirements and guidelines.
   Interviewed TVA management to identify controls present for the assignment of official
    stations.
   Reviewed documentation for official station changes to determine if controls were
    functioning as described.
   Summarized travel expenses of TVA employees during the audit period to identify
    TVA’s most frequently traveling employees and top traveling departments.
   Reviewed and analyzed official station information and travel expenses to determine
    whether the official station appeared reasonable for TVA’s most frequent traveling
    employees.
   Interviewed TVA management to determine if directives issued by Accounting
    Services in response to the OIG’s Inspection 2006-522I, Review of TVA Travel
    Reimbursements, were implemented.
   Interviewed TVA management to determine how top traveling departments assign
    official stations for employees in their groups.

When evaluating the results of our audit work, we are required to use both qualitative and
quantitative factors when considering the significance of an item. In the performance audit
requirements, the term “significant” is comparable to the term “material” as used in the
context of financial statement engagements. The quantitative factor we considered in
determining an item’s significance was whether the dollar value of an error(s) exceeded
3 percent ($806,181) of TVA’s average total annual travel spend for the audit period. The
qualitative factor(s) considered in determining an item’s significance was whether the item
impacts TVA’s revenue or reputation by violating TVA policies and procedures relevant to
the assignment of official stations. None of the items identified during this audit rose to
either level to be identified as significant items.

The scope of our audit was travel expenses for TVA employees FYs 2009 through 2013.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

FINDINGS

Official stations generally appeared appropriate for TVA’s most frequent travelers;
however, we noted inconsistencies in assignment of official stations between departments
with employees who frequently travel to multiple locations. Additionally, controls and
policies could be strengthened by (1) including guidance on evaluating official stations and

                              TVA RESTRICTED INFORMATION
Diane T. Wear
Page 4
June 23, 2014



(2) requiring approval from the appropriate level of management for decisions not to
change official stations based on the dollar values of travel expenses incurred or expected
to be incurred.

As part of our audit, we also followed up on TVA management actions taken in response
to the OIG’s previous travel review. We noted actions agreed to in the past do not appear
to have been fully implemented.

OFFICIAL STATIONS GENERALLY APPEARED APPROPRIATE

Official stations generally appeared appropriate for TVA’s most frequent travelers. We
summarized TVA’s travel expense data for FYs 2009 through 2013 and identified TVA’s
most frequent travelers according to days spent in travel status.

Of those employees we identified 13 who appeared to travel most frequently to one
location. Since no TVA guidance was found to evaluate reasonableness of official
stations, we developed reasonableness criteria of (1) less than 3 years traveling to a
single location and (2) less than $90,000 in travel expenses which is twice the standard
relocation package. Only 1 employee’s official station appeared questionable based on
our criteria. This employee traveled the majority of 3 years to a single location and had
travel expenses of $134,055 to that location. During FY2010 the employee was
reimbursed for 173 days of travel, 365 days of travel in FY2011, and 328 days of travel in
FY2012. The employee’s official station was Widows Creek Fossil Plant, but the
employee was on loan to John Sevier Fossil Plant for FYs 2010 through 2012. Based on
responses from TVA management, it appears changing the employee's official station was
discussed, but no actions were taken. The employee was even offered a position at John
Sevier but declined. The employee retired during our audit period.

We also interviewed managers of the top traveling departments based on total travel
expenses for the audit period to determine how official stations are assigned for frequent
travelers. Employees in these departments traveled frequently to multiple locations
throughout the year. Official stations were assigned according to either (1) the TVA facility
closest to the employee’s home, (2) the employee’s personal address, or (3) the base of
operations for the department. TVA guidance on the assignment of official stations for
positions requiring frequent travel to multiple locations is limited to one sentence in the
definition of official station in the Travel Policy. The definition states “if the employee's
work involves recurring travel or varies on a recurring basis, the location where the work
activities of the employee's position of record are based is considered the official station.”
Developing specific guidance on assigning official stations for positions requiring frequent
travel to multiple locations would promote consistency among departments.

CONTROLS AND POLICIES COULD BE STRENGTHENED

Official stations are initially determined by management and assigned to employees as part
of the hiring process. Supervisors are responsible for ensuring official stations remain
appropriate. According to the Travel Policy, supervisors are expected to give consideration
to changing an employee’s official station in lieu of paying continuous travel allowances if
the employee is expected to remain at one temporary station for an extended period of

                             TVA RESTRICTED INFORMATION
Diane T. Wear
Page 5
June 23, 2014



time. However, no other TVA guidance on the assignment or review of official stations was
noted.

Changes to official stations are initiated by supervisors and processed by Human
Resources. We reviewed documentation related to official station changes for
12 employees from our listing of TVA’s most frequent travelers and determined
procedures were generally followed.

Guidance on Evaluating Official Stations Would Strengthen Controls
While the Travel Policy addresses responsibilities for official stations, controls could be
strengthened by including guidance concerning:

   When a supervisor or manager should evaluate changing the official station of an
    employee who is in extended travel to a single location.
   What information should be considered when evaluating the official station of an
    employee in extended travel to a single location. Specifically, information to consider
    should include (1) the expected length of the assignment, (2) the cost of paying
    continuing travel allowances, (3) the cost of relocating the employee, and (4) the cost
    of paying temporary relocation allowances for a temporary change of official station.
   How to document supervisors’ evaluations and the resulting decisions.

Require Approvals Based on Potential Costs of Continuous Travel or Relocation
According to information received from Relocation Services, a standard relocation
package is estimated to cost $45,000 for employees who own their home. In some cases,
we noted employees incurred expenses in excess of $45,000 traveling to a single location
over multiple years. Requiring the appropriate level of management to approve decisions
not to change official stations based on the dollar values of travel expenses incurred or
expected to be incurred would help ensure decisions made by supervisors are in line with
the department’s and TVA’s budget constraints.

PAST ACTIONS AGREED TO NOT FULLY IMPLEMENTED

We noted action plans agreed to in the past do not appear to have been fully
implemented. As part of our audit we followed up on the action plans agreed to by TVA
management in response to the OIG’s previous travel review, Inspection 2006-522I,
Review of TVA Travel Reimbursements. TVA management agreed with the OIG’s
recommendations for TVA to reemphasize the importance of compliance with TVA’s travel
policies and procedures and require management to ensure that employees in extended
periods of travel are, in fact, maintaining a residence at their official station. TVA
management also stated they would strongly encourage SBU controllers to periodically
review their employees’ official stations and ensure employees have an actual residence
at their official station.

In response to the 2006 review, an e-mail communication was sent to various TVA
managers emphasizing the need to perform a proper assessment of all extended travel
situations as the result of temporary duty assignments and compliance with TVA’s travel
policies. The e-mail specifically mentioned (1) the requirement for documenting
consideration and justification for not changing the official station of an employee in
                              TVA RESTRICTED INFORMATION
Diane T. Wear
Page 6
June 23, 2014



extended travel and (2) ensuring employees reimbursed for extended periods of travel are
actually maintaining a residence at their official station.

Since that time TVA’s travel policy has been updated. Requirements for management to
(1) periodically review employee’s official stations and (2) ensure employees have an
actual residence at their official station were not added to the current Travel Policy.
Additionally, the requirement for documentation of official station considerations was
removed when Accounting Procedure 15 was replaced by the current Travel Policy.
Based on our discussions with management and supervisors, periodic reviews of official
stations do not appear to be conducted consistently across departments. Documentation
was not provided showing consideration of changes to official stations. Additionally,
management does not appear to ensure employees have residences at their official
station.

RECOMMENDATIONS

We recommend TVA’s Vice President and Controller, Corporate Accounting:

1. Consider developing specific guidance for assigning and/or reassigning official
   stations to positions at TVA requiring frequent or continuous travel that is not to a
   single location.

2. Develop guidance for supervisors to define when they are expected to evaluate
   changing the official station of an employee in an extended travel situation to one
   location.

3. Develop guidance for documenting evaluations of official stations for employees in
   extended travel to a single location, including information that should be considered
   during the evaluation.

4. Consider implementing an approval level based on potential costs to TVA for decisions
   not to change an official station made as a result of official station evaluations of
   employees on extended travel to a single location.

5. Include in TVA procedures a requirement for management to ensure employees in
   extended periods of travel are, in fact, maintaining a residence at their official station.

6. Communicate procedure changes in response to this audit to all SBUs’ management.

TVA Management’s Comments – TVA management agreed with the audit findings and
recommendations in this report. In response to our recommendations, TVA’s Vice
President and Controller, Corporate Accounting, has agreed to:

1. Review options and consider developing guidance for assigning/reassigning official
   stations to positions at TVA requiring frequent or continuous travel that is not to a
   single location.

2. Develop report requirements, supervisor guidance, evaluation/documentation, and
   approval requirements related to the review of official stations for employees in an
   extended travel situation to one location.
                              TVA RESTRICTED INFORMATION
Diane T. Wear
Page 7
June 23, 2014



3. Develop requirements for evaluation documentation of official stations for employees
   in extended travel to a single location.

4. Develop approval requirements related to the review of official stations for employees
   in extended travel situation to one location.

5. Consider updating the Travel Policy to reflect official station guidance including review
   of personal residence at their official station.

6. Communicate changes to the current Travel Policy as appropriate.

See the Appendix for TVA’s complete response.

Auditor’s Response – The OIG concurs with TVA management’s planned actions.

                       -       -      -       -       -      -

This report is for your review and final action. Your written comments, which addressed
your management decision and actions planned or taken, have been included in the
report. Please notify us when final action is complete. In accordance with the Inspector
General Act of 1978, as amended, the OIG is required to report to Congress semiannually
regarding audits that remain unresolved after 6 months from the date of report issuance.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Stephanie L.
Simmons, Senior Auditor, at (423) 785-4820 or Rick C. Underwood, Director, Corporate
Governance and Finance Audits, at (423) 785-4824. We appreciate the courtesy and
cooperation received from your staff during the audit.




David P. Wheeler
Deputy Assistant Inspector General
 (Audits)
ET 3C-K

SLS:BSC
Attachment
cc (Attachment):
     Katherine J. Black, LP 6A-C              R. Windle Morgan, WT 9B-K
     William D. Johnson, WT 7B-K              Charles G. Pardee, WT 7B-K
     Dwain K. Lanier, MR 3K-C                 John M. Thomas III, MR 6D-C
     Justin C. Maierhofer, WT 7B-K            TVA Board of Directors
     Robin E. Manning, MR 3A-C                OIG File No. 2014-15027
     Richard W. Moore, ET 4C-K

                             TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 1 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 2 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 3 of 3




TVA RESTRICTED INFORMATION
